                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-280




      Community Based Outpatient 

             Clinic Reviews 

                    at 

     Philadelphia VA Medical Center 

            Philadelphia, PA 





August 26, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                     CBOC Reviews at Philadelphia VAMC



                                          Glossary
                       C&P           credentialing and privileging
                       CBOC          community based outpatient clinic
                       CDC           Centers for Disease Control and
                                     Prevention
                       EHR           electronic health record
                       EOC           environment of care
                       FPPE          Focused Professional Practice Evaluation
                       FY            fiscal year
                       MH            mental health
                       MSEC          medical staff’s Executive Committee
                       NC            noncompliant
                       NCP           National Center for Health Promotion and
                                     Disease Prevention
                       OIG           Office of Inspector General
                       VAMC          VA Medical Center
                       VHA           Veterans Health Administration
                       VISN          Veterans Integrated Service Network
                       WH            women’s health




VA OIG Office of Healthcare Inspections
                                                                                   CBOC Reviews at Philadelphia VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics .............................................................................................              6

  C&P ........................................................................................................................    7

  EOC and Emergency Management.........................................................................                           8


Appendixes
  A. VISN 4 Director Comments ...............................................................................                    10

  B. Philadelphia VAMC Director Comments ............................................................                            11

  C. OIG Contact and Staff Acknowledgments .........................................................                             13

  D. Report Distribution .............................................................................................           14





VA OIG Office of Healthcare Inspections
                                                               CBOC Reviews at Philadelphia VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Gloucester County CBOC during the week of
April 1, 2013. The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC listed in Table 1.

    VISN        Facility                  CBOC Name                 Location
      4         Philadelphia VAMC         Gloucester County         Sewell, NJ
                                     Table 1. Site Inspected

Review Results: We made recommendations in one review area.

Recommendation:            The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to ensure that clinicians
screen patients for tetanus vaccinations.

Comments
The VISN and Facility Directors concurred with our recommendation and provided an
acceptable improvement plan. (See Appendixes A and B, pages 10–12, for the
Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                        JOHN D. DAIGH, JR., M.D.
                                                       Assistant Inspector General for
                                                            Healthcare Inspections


VA OIG Office of Healthcare Inspections                                                       i
                                                                       CBOC Reviews at Philadelphia VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                           CBOC Reviews at Philadelphia VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                   2
                                                                                                                    CBOC Reviews at Philadelphia VAMC



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCS under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                  Uniques FY          Visits FY
                                                                                            6
VISN      Parent Facility                     CBOC Name                           Locality          20127               20127          CBOC Size8
                                           Gloucester County                       Urban             5,601             25,309            Large
                                               (Sewell, NJ)
                                    Outpatient Clinic at Marshall Hall              Rural             5,375             28,051             Large
    4   Philadelphia VAMC                      (Ft. Dix, NJ)
                                    Victor J. Saracini VA Outpatient                Urban             9,878             30,971             Large
                                                   Clinic
                                             (Horsham, PA)
                                                                 Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/ 

7
  http://vssc.med.va.gov 

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                        CBOC Reviews at Philadelphia VAMC



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 31 patients who received a cervical cancer screening at the Philadelphia
VAMC or one of its CBOCs.

Generally, the CBOCs assigned to the Philadelphia VAMC were compliant with the
review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or

9
  World Health Organization. Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html. 

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

12
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                        CBOC Reviews at Philadelphia VAMC


near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element marked
as NC needed improvement. Details regarding the finding follow the table.

          NC                                      Areas Reviewed
           X          Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
                      Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.13 We reviewed 75 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 51 of the EHRs.

Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.




13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                   CBOC Reviews at Philadelphia VAMC



                                 Onsite Reviews 

                         Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs listed in Table 5.

                                                                   Gloucester County
VISN                                                                         4
Parent Facility                                                    Philadelphia VAMC
Types of Providers                                           Licensed Clinical Social Worker
                                                                    Nurse Practitioner
                                                                 Primary Care Physician
                                                                       Pharmacist
                                                                       Psychiatrist
Number of MH Uniques, FY 2012                                             1,155
Number of MH Visits, FY 2012                                              4,136
MH Services Onsite                                                         Yes
Specialty Care Services Onsite                                          Audiology
                                                                        Cardiology
                                                                     Ophthalmology
                                                                        Optometry
                                                                           WH
Ancillary Services Provided Onsite                                  Electrocardiogram
                                                                        Laboratory
                                                                    Physical Medicine
Tele-Health Services                                                   Dermatology
                                                                           MH
                                                                         MOVE14
                                                                        Neurology
                                                                      Rehabilitation
                                                                     Retinal Imaging
                                        Table 5. Characteristics




14
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                           6
                                                            CBOC Reviews at Philadelphia VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.15 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

The CBOC was compliant with the review areas; therefore, we made no
recommendations.


15
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    7
                                                          CBOC Reviews at Philadelphia VAMC


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                      Areas Reviewed
                    The CBOC was American Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles)
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                  8
                                                           CBOC Reviews at Philadelphia VAMC


Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and mental health emergencies are handled.16 Table 8 shows the
areas reviewed for this topic.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local mental health emergency management plan for
                       this CBOC.
                       The staff articulated the procedural steps of the mental health
                       emergency plan.
                                 Table 8. Emergency Management

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




16
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                   9
                                                           CBOC Reviews at Philadelphia VAMC
                                                                                  Appendix A
                             VISN 4 Director Comments


               Department of
               Veterans Affairs                               Memorandum


       Date:            July 29, 2013 


       From:            Director, VISN 4 (10N4) 


       Subject:         CBOC Reviews at Philadelphia VAMC 


       To:              Director, 54DC Healthcare Inspections Division (54DC) 


                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       I have reviewed the information provided by the Philadelphia VA Medical
       Center and I am submitting it to your office as requested. I concur with all
       responses and target dates.

       If you have any questions or require additional information, please contact
       Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.



        (original signed by Carla Sivek for:)
        Michael E. Moreland, FACHE




VA OIG Office of Healthcare Inspections                                                  10
                                                          CBOC Reviews at Philadelphia VAMC
                                                                                 Appendix B
                  Philadelphia VAMC Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:            July 29, 2013

       From:            Director, Philadelphia VAMC (642/00)

       Subject:         CBOC Reviews at Philadelphia VAMC

       To:              Director, VISN 4 (10N4)



       1. Thank you for the opportunity to review the draft report on the
       Community Based Outpatient Clinic Reviews at the Philadelphia Veterans
       Affairs Medical Center, Philadelphia PA (Gloucester CBOC).

       2. I have reviewed the document and concur with the recommendations.
       Corrective action plans have been established with planned completion
       dates, as detailed in the attached report.




        (original signed by:)
        DANIEL D. HENDEE, FACHE
        Interim Director




VA OIG Office of Healthcare Inspections                                                 11
                                                        CBOC Reviews at Philadelphia VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: October 1, 2013

Tetanus clinical reminder logic will be written for the vaccination. Clinical reminder
reports for tetanus vaccination will be run monthly with goal of 90% completion rate for
three consecutive months. Once this goal has been achieved, monitoring will occur
quarterly.




VA OIG Office of Healthcare Inspections                                               12
                                                          CBOC Reviews at Philadelphia VAMC
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Myra Conway, MS,RN, Team Leader
Contributors            Donna Giroux, RN, BSN
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow-Colón, MBA, Program Support Assistant
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  13
                                                      CBOC Reviews at Philadelphia VAMC
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 4 (10N4)
Director, Philadelphia VAMC (642/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr., Patrick J. Toomey
U.S. House of Representatives: Chaka Fattah


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              14
